                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A12110076                                                                      Page 1 of 1



                   An NSF division director 1 was alleged to have terminated inappropriately a program
         officer' s2 Intergovernmental Personal Act (IP A) assignment. IP A assignments may be terminated by
         NSF without cause. However, a review of relevant internal email records show that the division had
         reasonable concerns about program integrity and workload management to support terminating the
         IP A assignment. There is insufficient evidence to support concluding that the division director
         improperly discouraged other NSF divisions from offering the program officer a position.

                   Accordingly, this case is closed.




         2




NSF OIG Form 2 (11102)
